Audit Report




OIG-11-014
SAFETY AND SOUNDNESS: Failed Bank Review of Marshall
Bank, National Association
November 05, 2010




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                            November 05, 2010


             OIG-11-014

             MEMORANDUM FOR JOHN WALSH
                            ACTING COMPTROLLER OF THE CURRENCY
                            OFFICE OF THE COMPTROLLER OF THE CURRENCY

             FROM:                 Kieu T. Rubb /s/
                                   Director, Procurement and Manufacturing Audits

             SUBJECT:              Failed Bank Review of Marshall Bank, National Association


             This memorandum presents the results of our review of the failure of Marshall
             Bank, National Association (Marshall). Marshall was established in 1943 as
             Northwestern State Bank of Hallock, Minnesota, and converted to a national bank
             charter with its current name in 2003. The bank had a main office and three
             branches in Minnesota and was a subsidiary of Marshall BankFirst Corporation, a
             bank holding company established in 2002. The Office of the Comptroller of the
             Currency (OCC) closed Marshall and appointed the Federal Deposit Insurance
             Corporation (FDIC) as receiver on January 29, 2010. At September 30, 2009, the
             bank had $59.9 million in total assets. FDIC estimated that the loss to the Deposit
             Insurance Fund (DIF) is $4.1 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Marshall that was limited to (1) ascertaining the grounds
             identified by OCC for appointing the FDIC as receiver and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) examined documentation related to the
             appointment of FDIC as receiver, (2) reviewed OCC reports of examination, and
             (3) interviewed OCC personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-014
Page 2

Causes of Marshall’s Failure
The primary causes of Marshall’s failure were (1) aggressive growth in its commercial
real estate (CRE) loan portfolio which included loans originated by the bank and loan
participations purchased from an affiliate, BankFirst; 1 (2) ineffective board and
management that lacked independence from affiliates; and (3) weak underwriting and
credit administration by both Marshall and BankFirst. Marshall and BankFirst were both
owned by Marshall BankFirst Corporation and the two banks shared management and
board members. With the economic downturn, a significant amount of loan
participations purchased from BankFirst were subsequently charged off as losses
resulting in diminished earnings and capital and, ultimately, Marshall’s failure.


Conclusion
Based on our review of the causes of Marshall’s failure and the grounds identified
by OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure or the supervision exercised by OCC.
Accordingly, we have determined that a more in-depth review of the bank’s failure
by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of Marshall’s
failure and had no concerns with our determination that an in-depth review of the
bank’s failure was not warranted. The response is provided as Attachment 1. A list
of the recipients of this memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5904 or
Deborah Harker, Audit Manager, at (202) 927-5762.


Attachments


1
  BankFirst was a state member bank headquartered in Sioux Falls, South Dakota, regulated by the
South Dakota Division of Banking and the Federal Reserve Bank of Minneapolis under delegated
authority of the Board of Governors of the Federal Reserve System. BankFirst was closed and FDIC
named receiver on July 17, 2009. On August 19, 2009, FDIC estimated the loss to the DIF was
$90.0 million and total assets were $246.1 million. The Board of Governors of the Federal Reserve
System Office of Inspector General completed a material loss review on the BankFirst failure and
issued its report on February 19, 2010. The report stated that BankFirst failed because its Board of
Directors and management did not establish a corporate governance and oversight framework to
control the risks associated with its aggressive loan growth and high concentration in CRE loans.
         OIG-11-014

       Attachment 1
Management Response
                                                   OIG-11-014

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
